January 26, 2021
VIA FEDERAL EXPRESS AND ELECTRONIC FILING
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Joseph B. Scarnati, III, et al., v. Pennsylvania Democratic Party, et al., No. 20-574

Dear Mr. Harris:
Pursuant to Supreme Court Rule 35.3, I write to notify the Court regarding a change to
certain of the public officers who are parties to this appeal. On January 5, 2021, Jake Corman
succeeded Petitioner Joseph B. Scarnati III as Pennsylvania Senate President Pro Tempore. On
January 5, 2021, Kim Ward succeeded Petitioner Jake Corman as Pennsylvania Senate Majority
Leader.
Sincerely,
/s/ Jason B. Torchinsky
Jason B. Torchinsky
Counsel of Record
Jonathan P. Lienhard
Shawn T. Sheehy
Dennis W. Polio
HOLTZMAN VOGEL
JOSEFIAK TORCHINSKY PLLC
15405 John Marshall Highway
Haymarket, VA 20169
(540) 341-8808
(540) 341-8809 (Fax)
Jtorchinsky@hvjt.law

